<html>
<title> - STRENGTHENING BORDER SECURITY BETWEEN THE PORTS OF ENTRY: THE USE OF TECHNOLOGY TO PROTECT THE BORDERS</title>
<body><pre>[Senate Hearing 109-51]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-51
 
 STRENGTHENING BORDER SECURITY BETWEEN THE PORTS OF ENTRY: THE USE OF 
                   TECHNOLOGY TO PROTECT THE BORDERS

=======================================================================

                             JOINT HEARING

                               before the

      SUBCOMMITTEE ON IMMIGRATION, BORDER SECURITY AND CITIZENSHIP

                                and the

      SUBCOMMITTEE ON TERRORISM, TECHNOLOGY AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2005

                               __________

                          Serial No. J-109-18

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
21-922                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
                       David Brog, Staff Director
                     Michael O'Neill, Chief Counsel
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Immigration, Border Security and Citizenship

                      JOHN CORNYN, Texas, Chairman
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
TOM COBURN, Oklahoma                 RICHARD J. DURBIN, Illinois
                    James Ho, Majority Chief Counsel
                   Jim Flug, Democratic Chief Counsel
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JOHN CORNYN, Texas                   JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
LINDSEY O. GRAHAM, South Carolina    RICHARD J. DURBIN, Illinois
                Stephen Higgins, Majority Chief Counsel
                 Steven Cash, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     5
Cornyn, Hon. John, a U.S. Senator from the State of Texas........     1
    prepared statement...........................................    66
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    78

                               WITNESSES

Aguilar, David, Chief, Office of Border Patrol, Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  D.C............................................................     7
Evans, Kirk, Director, Mission Support Office, Homeland Security 
  Advanced Research Projects Agency, Science and Technology 
  Directorate, Department of Homeland Security, Washington, D.C..     9

                         QUESTIONS AND ANSWERS

Responses of Mr. Aguilar and Mr. Evans to questions submitted by 
  Senator Grassley...............................................    37

                       SUBMISSIONS FOR THE RECORD

Aguilar, David, Chief, Office of Border Patrol, Customs and 
  Border Protection, Department of Homeland Security, Washington, 
  D.C., prepared statement.......................................    40
American Immigration Lawyers Association, Kathleen Campbell 
  Walker, National Second Vice President, Washington, D.C., 
  statement......................................................    50
Evans, Kirk, Director, Mission Support Office, Homeland Security 
  Advanced Research Projects Agency, Science and Technology 
  Directorate, Department of Homeland Security, Washington, D.C., 
  prepared statement.............................................    69
Pew Hispanic Center, Jeffrey S. Passel, Senior Research 
  Associate, Washington, D.C., report............................    79
Taylor, Henry F., Distinguished Professor of Electrical 
  Engineering, Texas A & M University, College Station, Texas, 
  statement......................................................    90


 STRENGTHENING BORDER SECURITY BETWEEN THE PORTS OF ENTRY: THE USE OF 
                   TECHNOLOGY TO PROTECT THE BORDERS

                              ----------                              


                        THURSDAY, APRIL 28, 2005

                              United States Senate,
          Subcommittee on Immigration, Border Security and 
 Citizenship and the Subcommittee on Terrorism, Technology 
         and Homeland Security, Committee on the Judiciary,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to notice, at 3:00 p.m., in 
room SD-138, Dirksen Senate Office Building, Hon. John Cornyn, 
Chairman of the Subcommittee on Immigration, Border Security 
and Citizenship, presiding.
    Present: Senators Cornyn, Kyl, and Coburn.

OPENING STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Chairman Cornyn. This joint hearing of the Senate 
Subcommittee on Immigration, Border Security and Citizenship 
and the Subcommittee on Terrorism, Technology and Homeland 
Security will come to order.
    I first want to express my gratitude to Chairman Specter 
for scheduling this hearing. This hearing is the third in a 
series of joint hearings that Senator Kyl and I and our 
Subcommittees have had together to examine our immigration 
system from top to bottom. And I want to express my gratitude 
here publicly to Senator Kyl for his hard work and his 
partnership in working with me and our staff on these issues.
    As Senator Kyl and I announced a few weeks ago, we are 
working closely together and will continue to work with other 
Senators as well to identify and develop solutions to the 
critical problems that affect our immigration system. I want to 
express my gratitude as well to the Ranking Member of my 
Subcommittee, Senator Kennedy, as well as Senator Feinstein, 
the Ranking Member on the Terrorism Subcommittee, as well as 
their staffs, for working with us to make these hearings 
possible. To be successful, any effort to reform and to 
strengthen our immigration system in the United States Senate 
must be a bipartisan effort, and we look forward to continuing 
to work with our colleagues to that end.
    A few weeks ago, the Senate approved a broad, bipartisan 
sense of the Senate resolution, a resolution introduced by 
Senator Feinstein and myself. That resolution demonstrated to 
my mind that there is a growing consensus across the partisan 
and ideological spectrum that our immigration system is badly 
broken and fails to serve the national interests of our 
national security and our national economy and undermines 
respect for the rule of law, and that in a post-9/11 world, 
national security demands comprehensive reform of our 
immigration system.
    President Bush has articulated a vision for the 
comprehensive reform of our Nation's immigration laws. I am 
personally sympathetic to the President's vision, and I look 
forward to the critical role that our Subcommittees will play 
in the coming congressional debate.
    No serious discussion of comprehensive immigration reform 
is possible, however, without an overall review of our Nation's 
ability and will to secure our borders and enforce our 
immigration laws. We must provide sufficient tools and 
resources to those whose job it is to protect our borders and 
maintain our homeland security and identify those in our 
country who should be apprehended and removed, including those 
who should be deported.
    Accordingly, today's hearing is the third in a series of 
hearings focusing on identifying holes in our immigration 
enforcement system, places where enforcement has been badly 
deficient. Unfortunately, there are too many of those holes. 
Our immigration laws have been poorly enforced for far too 
long. That is because, in my view, the Federal Government has 
simply not lived up to its obligation to provide the resources 
and manpower in order to do just that. That must end and that 
will end.
    For example, at our last hearing, we examined challenges to 
enforcement in the interior of our country. We respect the hard 
work and efforts of our immigration investigators, detention 
officials, and other professionals responsible for locating, 
detaining, and removing those who remain in this country in 
violation of our laws. Yet as that hearing made clear, our 
deportation system is overlitigated and underresourced, 
overlawyered and underequipped.
    That hearing identified a number of specific problems, 
including the extra layers of appeals granted specifically to 
aliens who are deportable due to criminal activity and the 
judicially mandated release onto our streets of potentially 
dangerous individuals. Over one million aliens face deportation 
proceedings this year, yet we only have approximately 19,000 
detention beds to hold them. As a result, as many as 80 percent 
of those ordered to leave the country never show up to be 
removed.
    At our first hearing, we examined the challenges to 
enforcement along the border at the ports of entry. As that 
hearing made clear, we need better training opportunities and 
information provided to our front-line personnel, and we need 
to improve the reliability of documents used for entry into our 
country. National security demands we strengthen border 
inspection, ensure document integrity, and combat document 
fraud.
    Today's hearing will focus on securing our borders in 
between the authorized ports of entry. We will examine what 
tools and resources are currently being employed and what 
resources and tools may be needed to fill in the gaps along the 
perimeter of our country. To put it simply, we must shut down 
all of the routes used to enter our country outside of 
authorized ports of entry.
    Unfortunately, this is easier said than done. The U.S. 
Border with Mexico runs almost 2,000 miles, while our border 
with Canada runs roughly 5,000 miles. My home State of Texas 
alone accounts for a majority of the Southern border, sharing 
about 1,285 miles, or 65 percent of the Southern border.
    In Fiscal Year 2004, the total number of arrests along the 
Southern border totaled more than 1 million with approximately 
330,000 of those apprehended entering Texas illegally. And, the 
numbers are only increasing. Indeed, we have already surpassed 
last year's number in the current fiscal year.
    These numbers demonstrate the hard work and dedication of 
our Border Patrol under the most difficult of circumstances, 
but also indicate the tremendous challenges that they face 
given the current staffing and resources that they have been 
provided by the Government.
    According to the Pew Hispanic Center, the U.S. averages 
700,000 to 800,000 new undocumented aliens every year. We 
simply must and can do better. We must explore the better use 
of technology. The effective use of technology between the 
ports of entry can serve as a force multiplier for our Border 
Patrol agents and officers charged with securing our border. 
And as we have heard time and time again, the same means of 
entry that can be used for someone who wants to come to the 
United States to work can likewise be used just as easily by 
those who want to come here to commit crimes or perhaps acts of 
terrorism.
    Technology allows our agents, though, to conserve manpower 
and efficiently respond when we identify breaches in our 
border. But it is by itself no panacea. There will inevitably 
be glitches in deployment and use of technology, and clearly, 
technology is only as good as the men and women we have on the 
ground who we must teach to utilize it and take advantage of it 
to the maximum degree.
    Accordingly, today we examine the existing technology used 
along our border and used to secure it and learn a little bit 
more about how it is actually deployed on the ground. We will 
hear what problems have been experienced and what Congress 
might be able to do to provide more support in this area. And I 
hope that today's witnesses will give our Subcommittees a 
better idea of what else this Subcommittee and the Judiciary 
Committee and the United States Congress as a whole can do to 
fully secure our borders in between the ports of entry through 
the most effective use of technology.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    With that, I will turn the floor over to Senator Kyl, my 
colleague and the Chair of the Terrorism Subcommittee.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. Thank you, Chairman Cornyn. I join you in 
welcoming everyone to this hearing today. We will be examining 
today the use of technology to help secure the borders of the 
United States between our ports of entry, as you noted, and our 
two witnesses here today are obviously both very capable to 
provide us information in that regard.
    This hearing today is part of a larger commitment, as 
Senator Cornyn noted, that his Subcommittee and mine will use 
to help to educate our colleagues as well as put on the public 
record the need to enforce the immigration laws of the United 
States, how we can better do that in order to protect ourselves 
from terrorist and criminal threats and to restore integrity in 
the rule of law.
    The name of my Subcommittee is Terrorism, Technology and 
Homeland Security, so this hearing today is directly related to 
the activities that we have been engaged in, and I am very much 
looking forward to hearing from our witnesses today so that we 
can better make the point to our colleague that the Federal 
Government cannot continue to overlook its distinct and 
singular obligation to maintain law and order on the border and 
that we have got to fully commit ourselves to funding the 
agencies that make up our immigration system so that these 
agencies can effectively perform the work that we call upon 
them to do as well as provide them direction and oversight.
    We count on DHS, as always, to be very frank in discussing 
the challenges it faces in enforcing our immigration laws. We 
are always interested in learning about progress that you have 
made, but also problems and needs that you have, what we can do 
to help you secure the tools that you need in carrying out your 
mission.
    I just want to add to the formal statement that I have just 
made this personal comment. In the sector that is the highest 
use of illegal immigrant smuggling, the Tucson Sector on the 
Arizona border that used to be the responsibility of the Chief 
of the Border Patrol, David Aguilar, got a great deal of 
national attention focused because of a group of private 
citizens who chose to draw attention to the problems in that 
part of the border by going there themselves and staking out 
some territory along the 9- or 10-mile area, calling themselves 
``the Minutemen'' and, as I have said, demonstrating that a 
little bit more manpower in an area can help to control the 
border.
    Now, as to whether or not it was their presence that had 
the effect, there are differences of opinion. But there are a 
couple of things I think that are unassailable. One of them is 
that the fact that the Mexican Government knew that they were 
there and apparently had some concerns about them, about what 
these people would do, concerns that have proven to be 
unfounded in terms of any violence or harm brought to the 
illegal immigrants. But because there were concerns, the Grupa 
Beta, which is the police force south of the border responsible 
for would-be immigrant safety, as it were, and perhaps other 
Mexican agencies, attempted to dissuade people from crossing 
the border. And it appears to have worked. The immigration in 
the Tucson Sector appears to have dwindled to a trickle.
    This was not due to any great technology application. It 
was simply the threat that there were a bunch of Americans on 
the north side of the border that might cause harm to these 
immigrants, as a result of which the Mexican Government was 
able all by itself to bring the immigration in that area to a 
trickle, according to the statistics we have, which suggests 
something else, and that is that better cooperation with the 
Mexican Government in thwarting the illegal immigration would 
be another force multiplier, that it should not be all the 
United States playing defense, and that we ought to seek more 
agreements with our friends to the South, the Government of 
Mexico.
    Chief Aguilar, I will be especially interested in your 
testimony in this regard. You identify a great many different 
agreements and partnerships and so on, all of which may have 
some discrete and limited benefit, but which added together 
amount to a drop in the bucket and, frankly, focus more on the 
tougher cases, the drug smuggling and some of the higher-
priority cases that may potentially involve terrorism, for 
example, but have very little effect on the run-of-the-day 
normal illegal immigration problem that exists.
    I will be very curious not only to focus on the kind of 
technology that we could employ, but because of your 
experience, anything you might add about ways in which we could 
encourage the Mexican Government to stop encouraging illegal 
immigration and start helping us by discouraging illegal 
immigration. Again, slightly outside the burden of our hearing 
today, but since your written testimony contains so many pages 
of reference to how we have worked with the Mexican Government, 
I thought it was an appropriate question to sort of 
preliminarily ask you.
    I am looking forward to the testimony that both of you have 
to offer today, and I suspect that we can keep the record open 
for either questions from our colleagues or additional comments 
from the witnesses, if they would like.
    Chairman Cornyn. Senator Coburn? I want to recognize our 
colleague from Oklahoma who has been conscientious about 
attending these Subcommittee hearings as well. We would be glad 
to recognize you for a few brief opening remarks.

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. Well, thank you both, Chairmen.
    First of all, we had a discussion, and I think it is 
important that you all hear this and take it back. The rules of 
the Senate, although we do not have the rules formalized in the 
Committee, is your testimony is to be here 48 hours before we 
have this meeting. And there is a real good reason for that, 
and that is so we can read what you have to say, think about 
what you have to say, and formulate great questions so that we 
can do the business of the people of this country. And I 
understand it is not either of your fault that your testimony 
did not get here because it goes through a filtering process. 
And so I do not hold either of you accountable. But I do want 
the Committee to know and I want it to go up the line that when 
we do get our rules in the future, I will be making a point of 
order and a formal objection to the continuation of any 
Committee meeting where my staff or I are not able to be 
prepared. We had one testimony arrive at 1:40 p.m. today for 
this hearing. And, again, it is not of your fault. I know it is 
not of your fault. But that message needs to be taken home.
    The second point I want to make is to Chief Aguilar. Thank 
you for your service and thank you for your leadership. You all 
are not recognized right now. You are seen sometimes as the 
problem, and you are not the problem. The fact is you just do 
not have enough help and resources. And I want to publicly 
thank you for putting your life on the line for the rest of the 
people in this country. And the rest of the people in the 
country get it. You all are important and vital to our national 
security as well as our way of life. And this is a country of 
immigrants, and we do not want that to stop, but we do want the 
law. And what you do to enforce the law every day I want you to 
know we appreciate from the bottom of our heart, and we 
recognize that you put yourself and your own families at 
sacrifice when you do that.
    Finally, a comment that was made to me in private, and I 
will not relate who it is, but it concerns me a great deal with 
people within the administration are not allowed to give us 
what they really think, that it has to be filtered. In other 
words, a lot of people in this administration know what we need 
to do, but it does not fit with what the plan is. And so, 
therefore, the true thought and the true personal testimony 
does not come to the Members of Congress.
    And I just want to encourage you, when that happens, to be 
bold enough to make sure Members of Congress know how you 
really feel, even if it is in private, because we cannot make 
decisions--and I think in the homeland security areas more than 
anywhere else, I am picking up from individuals within the 
administration that they are not allowed to tell us what they 
really think, that they have to toe the line. And that is good. 
You should be loyal. But the other thing is we really need the 
information to make the best decisions.
    So I would encourage you, if that happens, members of this 
body, I guarantee you, you will be protected, but we need to 
have all of the information, not just what they want us to 
have.
    With that, thank you for your testimony. I thank you for 
holding this hearing, and I look forward to asking questions. 
Thank you.
    Chairman Cornyn. Thank you, Senator Coburn.
    We are pleased today to have a distinguished panel from the 
Department of Homeland Security, and I will introduce the panel 
and then ask each of you to provide us with an opening 
statement for about 5 minutes each, and then we will proceed to 
some questions and answers.
    David V. Aguilar has served as the Chief of the Office of 
Border Patrol since May of 2004. As the Nation's highest-
ranking Border Patrol officer, Chief Aguilar directs the 
enforcement efforts of more than 12,000 Border Patrol agents 
nationwide. He brings us the knowledge and expertise gained 
from more than 26 years of service in the Border Patrol.
    Dr. Kirk Evans is the Office Director of the Homeland 
Security Advanced Research Projects Agency. Dr. Evans has more 
than 27 years of experience in program management and 
acquisition of systems for surveillance and command, control, 
and communications.
    Gentlemen, we welcome both of you, and we would be pleased 
to hear your opening statements. Let's begin, if we may, Chief, 
with you. If you would provide us your opening statement for 
about 5 minutes, then we will turn to Dr. Evans, and then we 
will engage in hopefully some good conversation back and forth.

  STATEMENT OF DAVID AGUILAR, CHIEF, OFFICE OF BORDER PATROL, 
CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Aguilar. Yes, sir, thank you, Chairman. Chairman 
Cornyn, Chairman Kyl, Senator Coburn, thank you for your kind 
statements, and we appreciate that.
    It is my honor to have the opportunity to appear before 
this panel today and discuss the successes, the achievements, 
and some of the remaining challenges that we have had in the 
United States Border Patrol in securing our Nation's borders. 
It is a challenge. Challenges remain. Our job is not done, but 
I can assure this panel that the men and women of the United 
States Border Patrol are continuing to do everything they can 
within the resources that we have to make this Nation more 
secure.
    My name is David Aguilar, and I am the Chief of the Border 
Patrol. I would like to begin this morning by giving you a 
snapshot, a brief overview of the agency and how we operate out 
there.
    One of the very obvious things but I don't think it is 
stated often enough is the following: that our primary mission 
is, in fact, to detect, deter, and apprehend terrorists and 
their weapons as they attempt to enter into the United States. 
It is very critical to also point out that our traditional 
missions that have come with us from our legacy organizations 
remain and are still very important, and I will point out why I 
think that is still very important today as we speak a little 
later on. But those traditional missions of keeping out 
narcotics, aliens, smugglers of any other contraband also 
continue to be a very important and integral part of our 
everyday job out in the field, out in the border, South, North, 
and on some of the coastal waterways that we patrol.
    We have spoken a little bit about the Southern border. The 
Southern border is over 2,000 miles of border, the Northern 
border is over 4,000, and we patrol over 2,000 miles of the 
coastal or maritime sector that are taken up by our Miami, New 
Orleans, and Puerto Rico Sector. Within that area of operation 
along our Nation's borders, last year, during the fiscal year, 
the United States Border Patrol agents apprehended over 1.1 
million apprehensions last year. Of those 1.1 million 
apprehensions, approximately 52 percent of those were 
apprehended within the State of Arizona. Today as we speak, 
this chart up here depicts that the heaviest flow is into, in 
fact, Arizona and the New Mexico of operation. Approximately 61 
percent of our apprehensions are occurring today as we speak 
year to date in that part of the country.
    Last year, fiscal year 2004, we apprehended over 1.3 
million pounds of marijuana as it attempted to enter into this 
country. Today as we speak, alien apprehensions are up by about 
3 percent. We are down in apprehensions by about 10 percent in 
the area of narcotics. Last year, we apprehended a total of 
75,000 other than Mexicans crossing our Nation's borders. Today 
as we speak, year to date we are at approximately 71,000 OTMs. 
We are up by approximately 124 percent in the area of OTMs.
    Now, we did this with about 12,000 agents, as the Senator 
pointed out. We have, of course, remote video surveillance 
systems strewn throughout the border, especially on the 
Southern border, a total of about 246 camera sites as we speak 
today. We have approximately 112 aircraft along our Nation's 
borders out there, but the challenges continue to be there, the 
challenges such as the urban-to-rural dynamics that I speak of.
    When we started operations along the Nation's borders, 
especially in El Paso, in 1993, it was a very urban-type 
operation that we conducted out there. We moved from El Paso in 
1993-94 to San Diego. The shift shifted over towards South 
Texas. We went to South Texas, and then we ended up in Arizona. 
Those were urban-type operations. They were easier than what we 
are faced with today.
    Today we are faced with very rural-type operations where 
the dissipation of the criminal organization is out in the very 
rural areas. Technology is absolutely critical in these rural 
environments, and that is one of the reasons that I am very 
glad that we are holding these hearings today.
    The vastness, the remoteness. One of the other challenges 
that we face that Senator Kyl knows very well is that of 
environmental concerns out there. Just to give you an idea, 
approximately 40 percent of our Southern border lands that we 
are responsible for patrolling are federally managed, 
environmentally protected, or environmentally sensitive; the 
Northern border, approximately 27 percent. Again, this is 
important to us because it requires us to be able to access and 
be mobile laterally along our Nation's borders in order to 
conduct national security efforts.
    We have come a long way. We worked very closely with the 
Department of the Interior, with the Department of Agriculture 
to gain the latitude that we need in order to operate out 
there, but, again, this is an area where technology is going to 
help us tremendously.
    The manner in which we deploy basically is based on the 
criminal organizations. The Southern border is the 
infrastructure that is south of us. The Northern border, 
Canadian population, approximately 90 percent of the Canadian 
population lives within 100 miles of our borders there. The 
density of population is such that the potential metropolitan 
targets, such as Boston, Philadelphia, Washington, D.C., New 
York City, are the areas we concentrate on. On the Northwest, 
also we have our Blaine Sector where the potential targets are 
Los Angeles.
    One of the things that is absolutely critical that I would 
like this Committee to hear is that we have implemented a 
revised National Border Patrol Strategy that has now been in 
place for about 6 or 8 months. Key objectives: establish 
substantial probability of apprehending terrorists as they 
enter into this country; deter illegal entries between the 
ports of entry; detect, deter, and apprehend aliens, narcotics, 
and other contraband smugglers; leverage smart border 
technology as a force multiplier for our personnel out there; 
and reduce crime in border communities, reinvigorate the 
economic vitality, and improve the quality of life of those 
communities.
    My time is out, I know, but I just want to make a statement 
that I thank the Subcommittee for this opportunity to present 
this testimony. I assure you that the men and women of the 
United States Border Patrol are doing everything that they can, 
and we will continue to be assertive and aggressive in 
protecting and increasing this Nation's security.
    Thank you.
    [The prepared statement of Mr. Aguilar appears as a 
submission for the record.]
    Chairman Cornyn. Thank you, Chief.
    Dr. Evans, we would be glad to hear an opening statement 
from you.

  STATEMENT OF KIRK EVANS, DIRECTOR, MISSION SUPPORT OFFICE, 
 HOMELAND SECURITY ADVANCED RESEARCH PROJECTS AGENCY, SCIENCE 
 AND TECHNOLOGY DIRECTORATE, DEPARTMENT OF HOMELAND SECURITY, 
                        WASHINGTON, D.C.

    Mr. Evans. Good afternoon, Chairman Cornyn, Chairman Kyl, 
Senator Coburn. It is my pleasure and honor also to come before 
you today to share our vision and progress in developing sensor 
and information systems in support of the Border Patrol's 
mission. The Chief has been far more capable in describing to 
you the challenges and missions that the Border Patrol 
undertakes. In discussions with the Border Patrol, it is clear 
to us that the primary and the highest priority area they would 
like us to work on in terms of technology is in the 
surveillance or cueing mission.
    To do this, we have two primary and large challenges. The 
first is the magnitude of the area involved. Consider the 
Southern border. It is 2,000 miles long. To develop an 
electronic fence along that border, it is insufficient just to 
have a magic line along the border. You have to have some depth 
to that line. Consider the Southern border with a one-half-mile 
zone in which we detect both vehicles and people crossing that. 
If we were to use the kinds of ground sensors we have today 
with, on the average, let's say, a 10-meter detection range and 
we want to have a probability of detection of anything crossing 
that border of 50 percent, that would require 3 million 
sensors, 3 million sets of systems. That number goes to about 
1,300 for 450-meter detection ranges. It goes to 375 for a 1-
mile type of detection range. So, clearly, in our sensors and 
whatever we put on the border, sensor detection range is a 
major, major factor.
    Second is the false alarm rate. Assume that the Border 
Patrol manpower along the Southern border--and that is a big 
assumption on my part--allowed them to respond to four false 
alarms a day along the Southern border. If we had those 10-
meter sensors, all 3 million of them, that amounts to a false 
alarm rate for each sense of 1 in 2,000 years. That is just not 
technologically achievable. For the 1-mile sensor, that gets 
down to about a 90-day false alarm rate per sensor. That is 
perhaps achievable.
    If one were to think of a series of sensors along the 
border, arguably we could think about a sensor capability of 
detecting a person crossing the border at 1 mile with a false 
alarm rate of 1 per 90 days, a field lifetime of a year, and a 
per unit cost much less than the tens of thousands of dollars--
or $30,000. Today, that sensor does not exist.
    In order to get that capability, that surveillance 
capability, there are a number of technologies that we can look 
at. This list I am going to give you is by no means exhaustive, 
but it is a starting point.
    Radars. The present radars that have been tried and tested 
are principally mono-static--that is, it is the typical radar 
you have seen in the World War II movies where you have got the 
transmitter and receiver antenna are the same. We are 
interested in looking at bi-static and multi-static radars that 
user separate transmitters and receivers. They could have some 
advantages along the border, a spread-out border such as we 
have on the Southern border. One form is called passive 
coherent localization. It uses ambient signals such as TV, cell 
phone, direct broadcast satellite, and radio signals, with a 
lot of multiple receivers to detect moving targets. This 
technology has been developed for air defense by the military 
over the last few decades. It has never been used in a ground 
sense, although there have been some initial looks at it. 
However, a technology testing and development effort is 
required to fully understand the phenomenology for surface 
targets and the required system parameters. Today we do not 
know it will work, but it is worth looking at.
    Fiber optics. There have been a number of fiber optic 
concepts proposed, some with sensors attached to the fiber 
every few meters, some which use the fiber itself as the 
sensor. Although for most border applications that means 
burying the fiber, that technology also has some intriguing 
advantages.
    Unattended ground sensors is one of the systems the Border 
Patrol uses today. They are planning on doing upgrades to their 
unattended ground sensors in the America's Shield Initiative, 
and DHS Science and Technology looks to assist them in looking 
at new sensors, alternative power sources, covertness, signal 
processing, connectivity, power
    Airborne sensors have an advantage of height of eye, can 
look out over a long range, thus give excellent range. The 
Border Patrol has successfully used UAVs in the Arizona Border 
Control Initiative and shown that that has a definite force 
multiplier. We would like to look at a combined sensor system 
that has synthetic aperture radar, an EO/IR sensor suite, and 
develop a payload in a manned aircraft, and that could then be 
downsized for UAVs.
    We are also interested in high-altitude or space-based 
sensor systems, and a key piece of the technology is automated 
scene understanding, that is, having machines do the detection, 
at least the alerting to operators, thus saving a lot of 
manpower.
    Finally, we have a test and demonstration program ongoing 
in the Arizona area starting up called BTSNet in which we are 
trying to get connectivity and scene awareness to the agent in 
the field.
    In conclusion, there is not one silver bullet solution to 
maintaining complete awareness and control of who and what 
approaches our borders. What is required is a system of systems 
approach that integrates multiple sensor and surveillance and 
tactical systems and response systems into an information 
network. America's Shield Initiative provides that overall 
system of systems framework.
    We will be providing key technology capabilities that can 
be incorporated both at the beginning of ASI and over time as 
technology matures. We are looking at the sensor types of 
technologies I just described and scene awareness and 
information processing.
    That concludes my prepared statement. With the Committee's 
permission, I request that my formal statement be submitted for 
the record.
    Chairman Cornyn. Certainly. Both of your formal statements 
will be made part of the record, without objection.
    [The prepared statement of Mr. Evans appears as a 
submission for the record.]
    Chairman Cornyn. Chief Aguilar, I think you just explained 
the discrepancy we had on the numbers of apprehensions. The 
numbers, I believe, that we were given indicate that year to 
date for fiscal year 2005 it has been about 653,000 
apprehensions. You mentioned that it is 1.1 million for the 
last complete year of statistics, correct?
    Mr. Aguilar. Fiscal year 2004, yes, sir.
    Chairman Cornyn. And so far this year you have seen about a 
3-percent increase.
    Mr. Aguilar. Overall, yes, sir.
    Chairman Cornyn. Do you have any idea or guesstimate of how 
many people who come across our border we are unable to 
apprehend because of lack of equipment, technology, or manpower 
to do that?
    Mr. Aguilar. We have been asked that question numerous 
times, Senator, and the only manner that we have found to be 
responsive to that is in the following: In those areas where we 
are fully deployed, where we have the technology, the number of 
personnel, the mix of resources that is appropriate to bring 
operational control to the border, we can gauge it pretty 
closely. We have areas where we feel very confident that we are 
getting over 80, 90 percent of the attempted entries. We have 
other areas where we just do not have the resources, the 
manpower, or the technology out there to start even gauging.
    We use what we refer to as a loose manner of intelligence, 
if you will. I do not know if you are familiar with the term 
``sign-cutting,'' but we go out and actually ride the line and 
track any kind of incursion that has occurred--of course, that 
is after the fact--and we try and count that. In areas where we 
do have the technology, RVS systems, remote video surveillance 
systems, or we use third-party indicators, community call-ins, 
law enforcement call-ins, things of that nature, we have a 
better feel for it. But, unfortunately, we cannot give you that 
overall for the Nation.
    Chairman Cornyn. I am curious. Why do you think it is that 
your number of OTM apprehensions, other-than-Mexican 
apprehensions, is up 124 percent over last year?
    Mr. Aguilar. Senator, as you probably know, one of the 
issues that we have, one of the concerns that we have is our 
ability to detain those other than Mexicans that we do 
apprehend, that the Border Patrol apprehends. Our sister 
agency, ICE, is trying very hard to manage the bed spaces that 
they have out there. But, unfortunately, it is not a good 
system that we have in place in some locations, and by that I 
mean the following:
    We have one sector in particular, McAllen, which is in 
South Texas, that has an OR rate, order of recognizance rate, 
where we release these people on their own recognizance, that 
goes upwards of 85 to 90 percent of the apprehensions that we 
do make.
    The one very good thing--and I can assure this Committee of 
the following--is that before we release these people on a 
notice to appear, order of recognizance, through technology and 
the full integration of IAFIS and IDENT, we make sure through 
every possible database that we are not releasing a person that 
is going to be a problem to this certainly or, in particular, 
has a nexus to terrorism.
    Chairman Cornyn. When we get a chance, maybe in other 
rounds, or maybe other Senators will get a chance to ask you 
about IDENT and IAFIS and how that helps. But as far as the 
reason we have seen such an uptick in other-than-Mexican 
incursions, is there a specific reason why you think that is 
the case?
    Mr. Aguilar. One of the reasons we feel is because of the 
fact that we are not able to detain as organizations under DHS 
the amount of people that we are seeing coming into this 
country.
    Chairman Cornyn. Well, of course, the IAFIS and IDENT 
systems are only as good as the data you have in those systems, 
correct?
    Mr. Aguilar. Yes, sir.
    Chairman Cornyn. In other words, if you don't get a hit 
based on the identity of the person who comes across, obviously 
you are not going to detain them then for a criminal record or 
for other reasons. Is that right?
    Mr. Aguilar. That is correct, Senator. IDENT basically is a 
legacy INS system that is a recidivist information-capturing 
system. IAFIS goes into the master FBI criminal file. The one 
thing that we have instituted as a matter of standard operating 
procedures, if you will, is that our officers on the line, even 
as much as the old law enforcement gut feeling that there is 
something that needs to be investigated, we work very closely 
with JTTF, FBI, and all the other associated law enforcement 
agencies to ensure to the degree possible that we are not 
cutting anybody lose that is going to be a threat to this 
country.
    Chairman Cornyn. I understand and appreciate the great job 
you are doing considering the resources you have, but I just 
want the record to be clear that just because somebody's name 
does not appear in the IDENT or IAFIS database, it does not 
mean that they are safe, that their presence in America is 
necessarily something we ought to feel comfortable about. Would 
you agree with that?
    Mr. Aguilar. That is correct, sir.
    Chairman Cornyn. And just so the record is clear, when we 
say other than Mexicans, we are talking about people who come 
up through the Southern border of Mexico from Central America, 
maybe South America, but we are also talking about people who 
fly from other continents to Central or South America and then 
use those known routes of ingress into the United States as 
well. Correct?
    Mr. Aguilar. That is correct, sir.
    Chairman Cornyn. For example, Chinese immigrants, Russian 
immigrants, we are talking about people from the Middle East, 
literally almost any country in the world, right?
    Mr. Aguilar. Yes, sir. The highest rate of OTMs that we 
apprehend right now along our Nation's borders are in the 
following order: Hondurans, El Salvadorans, Brazilians, 
Guatemalans, and Nicaraguans. But there is a whole array of 
other countries that we do interdict along our Nation's 
borders. That is correct.
    Chairman Cornyn. And I will just ask one last question 
before I turn you over to Senator Kyl. We have heard during the 
post-9/11 debates about our state of national readiness and 
preparation that we have to be right 100 percent of the times, 
the bad guys only have to be right once. And given that fact, 
given the difficulties that we have controlling our borders, 
identifying who is coming in and why they are coming in, do you 
have serious concerns today that, given the nature of our 
borders and our inability to control them because of lack of 
resources, America is in danger?
    Mr. Aguilar. I would answer that question in the following 
manner, Senator, and that is that we have done a lot since 9/
11, resources have been added. Could we use more? Absolutely. 
We are continuing to add, we are continuing to become more 
efficient by adding technology, by adding infrastructure, 
tactical infrastructure and things of this nature. We are now 
up and running, for example, on IDENT/IAFIS. But, yes, the 
concerns are there. That is why we continue to work very hard 
to ensure that to the degree possible, within the resources 
constraints that we have, we move forward and ensure the best 
we can in the area of national security.
    Chairman Cornyn. Thank you.
    Senator Kyl?
    Chairman Kyl. Thank you. I have some questions, Dr. Evans, 
for you, but just to follow up with one final question, Chief 
Aguilar. You have a category, in addition to the other-than-
Mexican designation, there is a category of countries of 
special interest, I believe is the correct phrase. What does 
that mean, and what is the problem there?
    Mr. Aguilar. Special interest countries, Senator, are 
basically countries designated by our intelligence community as 
countries that could export individuals that could bring harm 
to our country in the way of terrorism. And what that means is 
that anytime that we encounter an individual from those special 
interest countries, we pay particular attention to the 
individual, his or her background, where they come from, where 
they have transited to get to our country, and things of this 
nature. We have an SOP on things that we ensure we do: JTTF 
notification, FBI notification, run all the databases and 
everything that we can.
    As an example, the United States Border Patrol last year 
apprehended about 400 aliens from special interest countries.
    Chairman Kyl. And my understanding is that part of the 
concern is that those numbers are going up. Is that correct?
    Mr. Aguilar. At the present time, we have about a 10-
percent, approximately about a 10-percent increase at this 
present time. Yes, sir.
    Chairman Kyl. Thank you.
    Dr. Evans, let me get right to the bottom line, and I mean 
that literally, with respect to the budget for the kind of 
technology innovations that your folks are working on, the 
testing and acquiring of new technologies.
    Chief Aguilar says we can always use more. That is evident, 
I guess. The question is: Do you have enough money to 
aggressively pursue the operational goals in the area of 
technology? And do you think you can do an adequate job? And by 
adequate, I mean to get the job done. Or could you use 
additional resources? And if so, what particular areas and in 
what quantities?
    Mr. Evans. Senator, I usually answer that question, which 
is sometimes a little loaded, with the fact that under way we 
have this fiscal year the BTSNet, which is the information 
networking efforts. We really start seriously looking at some 
of the sensor technology in fiscal year 2006 with some early 
first-cut looks this fiscal year. I just brought on board a 
program manager for sensor systems.
    We can always use--we will be funding-limited in what we 
do. You know, sometimes you have programs which are just 
technology-limited. No matter how much money you threw at us, 
we could not do it any faster. In this case, the funding limits 
the number of different kinds of things we can look at. But it 
has got to be traded off against all the other priorities that 
science and technology has and some very large threats.
    We will start looking at some of the technology programs in 
things like passive coherent localization this year and next 
year. We have already done some in UAVs, but we do not have a 
very large effort. We are looking to support it and to support 
the ASI.
    Chairman Kyl. And that is true both with respect to the 
research as well as the actual application in the field. Is 
that correct?
    Mr. Evans. That is true with respect to the research and 
what I would call the test and evaluation in the field. The 
actual application and deploying in the field is the Chief's, 
and he has that under the ASI initiative. So two separate parts 
of our budget.
    Chairman Kyl. Is that right?
    Mr. Evans. Yes, there are two different appropriations: one 
is RDT&E and one is procurement.
    Chairman Kyl. Now, you mentioned the unmanned aerial 
vehicles, and I will just--in fact, let me relate this 
anecdote. I don't think he would mind. The successor to Chief 
Aguilar in the Tucson Sector said that he really appreciated 
the use of the unmanned aerial vehicle while it was flying in 
the Tucson Sector. It was very helpful to them. And I think 
everybody there wishes that we could have it redeployed.
    There are also all of the usual resources of manpower, 
vehicles, airplanes, sensors, cameras, radars, all of the 
things that are in the arsenal or the toolkit, in effect, of 
the Border Patrol. And there is a sense that if you have a 
certain amount of money to spend and you have to engage in the 
tradeoffs, as you mentioned, then you are better off going with 
those lower-tech but proven capabilities as opposed to putting 
all your money into the unmanned aerial vehicle.
    I would like to ask both of you to speak to that, but, in 
particular, Dr. Evans, if you could relate to what the costs 
are, what is the value of it, and what would the decision 
matrix be to decide whether or not to put the money into a 
full-scale use of the UAVs rather than the pilot projects that 
has now come to an end versus other kinds of capabilities.
    Mr. Evans. We see the UAV, the unmanned aerial vehicles, 
especially the class of vehicles that we have employed in ABCI, 
as what I would principally call a tactical vehicle. It is not 
something that is going to give you wide area surveillance 
coverage across the entire border. It does significantly 
enhance the Border Patrol's tactical operations. With that, 
they are able to--keeping agents out of harm's way, they are 
able to track aircraft, track people, come in, if you have some 
other indication that there is something occurring, they can 
get to it fairly quickly and get eyeballs on the situation.
    There are any number of light-weight and medium-weight UAV 
programs and airframe systems around. We in S&T and DHS do not 
necessarily need to get into that development. The development 
that we really need is both in ops concepts, but also in the 
sensors. I believe the sensors that have been used so far in 
UAVs in the border have been optical IR sensors. We need to 
combine that with other types of sensors and put together a 
sensor package. And I think the road to doing that in reducing 
the risk in the sensor package is in doing that in aircraft 
first and then downsizing the package. That is where the cost 
comes in.
    In the meantime, for the Chief to be able to UAVs and 
operate them--whenever you introduce a new technology such as 
the UAV, it has an impact on their concept of operations and 
how they learn to use and operate it. And it will take them 
time to learn how to most effectively operate it. So any 
experience that they get using that type of vehicle will be 
most helpful to them. In the meantime, we want to work 
principally on the sensor sweeping package.
    Chairman Kyl. Let me restate the question, even though the 
time has expired. I would like to get a really specific answer. 
You have a given amount of money--and this is for both of you. 
I am told that the UAV was very good in the pilot project, that 
they would really like to have it back. I am also led to 
believe that there is not enough money, and so, in effect, we 
put the question to him: Well, which would you rather have, a 
lot more agents, some helicopters, some more horses and ATVs 
and a few more cameras and radars and so on, or--or, not and--
the UAVs? And what I am trying to get at is your assessment of 
whether we really need both, because we will not appropriate 
the money unless our colleagues are convinced that the problem 
is such that we do not gain by making that choice, we only gain 
by providing the resources for both. But if we cannot tell them 
that you have said, yes, you really need both, then we cannot 
make the case.
    So can you provide us a little more specific information 
there, is what I was trying to get at.
    Mr. Aguilar. Let me go ahead and take at least part of that 
question, Senator, and I will answer in the following manner:
    As I stated earlier, part of our new revised national 
strategy speaks to obtaining the right combination of 
resources. Those have been primarily identified as personnel, 
infrastructure, and technology. It is that mix of resources 
that we apply to the border that will ensure that we bring the 
operational control that we need to bring there.
    Now, having said that, CBP, Border Patrol, was, in fact, 
the first law enforcement agency that applied UAVs in an 
enforcement posture. It was a pilot program in order to learn, 
to see what it could do for us. It proved to be very effective, 
especially in the area of officer safety, cueing, and bringing 
to resolution in some of these very remote places some of the 
sensor hits that in the past it would have taken an officer to 
respond 100, 120, 200 miles sometimes, to go check on that 
sensor. Utilizing the UAV, we could send it remotely and bring 
to resolution that hit out there, if you will.
    Now, that being the case, we are evaluating that pilot 
program that we had, and in addition to that, at minimal to no 
cost to CBP, we are also doing everything that we can to 
continue testing that type of equipment. Today as we speak, 
commencing on the 20th, which is, I guess, about 8 days ago, we 
are flying a Hunter UAV provided to us by the military in 
Arizona to continue the testing process. It will be with us 
until the 15th of May.
    Now, one of the things that is critical here is that we 
continue testing the technology attached to that, what is 
referred to as the EO/IR sweep, the electric optical sweep that 
is attached to them.
    Do we need both? Would both help us? Absolutely. The Border 
Patrol agent on the ground is key, but that force multiplier, 
especially in some of these challenged areas that we talk 
about, very vast, very remote, that combination of resources. 
Do we need it across the Northern and Southern borders? I would 
have to say a qualified probably not. But would it come in 
handy in Arizona and some portions out there? Yes, as it has in 
the past.
    Now, as to how many, how many agents, that right mix of 
resources, the technical sweep that is going to be applied to 
it, that is what we are trying to identify right now.
    I don't think that gives you the answer of yes or no, but 
that is where we are at right now.
    Chairman Cornyn. A vote was just called at 3:45, and, 
Senator Coburn, why don't you proceed. And then what I will do 
is I will go vote, and I will come right back and hopefully we 
will all--
    Senator Coburn. Fine. Thank you.
    First of all, I would like to introduce into the record the 
Pew Hispanic Center report, March 21, 2005, on the size and 
characteristics of the undocumented population. They also 
estimate that you stopped 1.2 million but 3 million came. So 
the net increase of those that came and went home, the net 
increase of our population, about 2 million people this year in 
terms of illegal population.
    I want to ask just a couple of questions. I know what your 
answer is going to be, but I want it on the record. Is it 
illegal to come here without a visa?
    Mr. Aguilar. Yes, sir.
    Senator Coburn. All right. Do the American people have the 
right to expect that that law is enforced?
    Mr. Aguilar. Absolutely.
    Senator Coburn. All right. Is that law being enforced?
    Mr. Aguilar. Within the resource capabilities that we have, 
I believe it is, sir.
    Senator Coburn. All right. Let's don't qualify it as to 
resources. Are people coming here illegally because we do not 
have the resources with which to control the border?
    Mr. Aguilar. I think that is a correct statement, yes, sir.
    Senator Coburn. So the question is--and you cannot believe 
the number of times people in Oklahoma come up to me and say, 
``When are we going to control the border? When are we going to 
do it? Are we going to control the border?''
    My question is somewhat along the same lines as Senator 
Kyl. What do you need? Tell us what you need. You know, we have 
19,000 retention beds. They need 50,000 retention beds. That is 
another $1 billion to add those retention beds. It seems to me 
if we put $1 billion on the border, we might need fewer 
retention beds. And that is the same question the American 
public is asking.
    I know that the CBP--what they have to do, and I know what 
ICE has to do. My question is: What do you need? Because the 
people from Oklahoma and I think most of the country is willing 
to make some sacrifices internally to give you what you need. I 
want to know what you need. How many billions do you need?
    I want an answer.
    Mr. Aguilar. Okay. Let me answer in the following manner, 
sir. Two years ago, a little over two years ago, when DHS came 
into being, we were all brought together under Customs and 
Border Protection, at least for us. That is one of the things 
that we brought to the table. Commissioner Bonner has basically 
asked us and we have put together a national strategy and an 
implementation plan to address that national strategy.
    One of the basic components to it is identifying the right 
mix or the right combination of resources. Again, the resources 
that we are looking at are personnel, technology, and 
infrastructure, tactical infrastructure. Does this mean that we 
need 2,000 miles of border along that Southern border? No. But 
we need to be able to place it to where we believe it is going 
to make the most good to stem that flow, to bring operational 
control to the border. That has been prepared.
    As you know, our Secretary is brand new. We are in the 
process of briefing this to that level of Government, and that 
is where we are at right now.
    Senator Coburn. I would just tell you the American people 
are dissatisfied with that, and you know it as well as I do.
    Mr. Aguilar. Yes, sir.
    Senator Coburn. You know, we had what I call undocumented 
Border Patrol agents last month in Arizona working, helping 
you, and I don't know if that was a good idea or not, but I 
think that we should pay very close attention to what that 
means. That means there is a level of frustration out there 
where we are not effectively carrying--we are not funding you, 
we are not doing the oversight, we are not doing the direction 
so that you can carry out what the American people know they 
should have and expect.
    And, you know, it is really not about illegal immigration. 
It is really about the risk of terrorism.
    Mr. Aguilar. Yes, sir.
    Senator Coburn. And the rhetoric is going to get way too 
hot in this subject if, in fact, there is not a better response 
from the administration. I can just tell you that. And then it 
will not be on the basis of what we all want it to be, a 
planned ascent to control the border. Then it is going to be on 
ethnicity and things other than what it should be.
    I would just hope that you would take back that we will 
have the time that you want to make. We do not have the time to 
wait 2 or 3 years for you to get the sensors that you want or 
to add the people that you want. They need to be added now, and 
we need an honest discussion of what it is going to take in 
this country to give you the resources. We know you know how to 
do it and we know you know how to create a layered and multi-
faceted approach to do this. The question is: Let's have it and 
let's start responding to it so that the American people can 
perceive it.
    Let me tell you how personal this is. You know, our ERs in 
the South are overrun with illegals for health care. Our public 
schools are now overrun with illegals. We have this chain 
migration where you come in pregnant and deliver and establish 
residency because you now have a citizen of the United States. 
That cannot continue to happen because the communities cannot 
afford it anymore. So this is building.
    I cannot impress--Dr. Evans, I would love to hear your 
response to this. There is a level of frustration throughout my 
entire State that says we are not doing what is supposed to be 
done to enforce the law. And that does not mean you are not 
trying. I am not saying that. But I want to send home to you 
the importance of timeliness of response on this, because I 
think this is not a good thing for the American people to be 
this frustrated with the Federal Government. There are a lot of 
other things they should be more frustrated about.
    Dr. Evans?
    Mr. Evans. I understand the frustration. In some of these 
areas that I have talked about, we are talking about inventing 
on schedule. That does not necessarily easily happen. We are 
admittedly funding-limited not technology-limited in a lot of 
the things we do to support Border Patrol and some of our other 
BTS customers. That is a matter of priorities within the 
administration, and that is above my labor grade.
    Senator Coburn. But what was the request for increase for 
Border Patrol and ICE this year? If that is one of the 
priorities of the administration, what was the level of request 
of the administration from Congress in the budget for an 
increase for both the CBP and the Customs Border Enforcement?
    Mr. Evans. Well, in the R&D that comes into a line which is 
support of conventional missions for Science and Technology, 
and that includes all of CBP, that includes emergency 
preparedness response--
    Senator Coburn. I understand. What is the percentage 
increase that they asked for?
    Mr. Evans. I think it was about 10 percent, but I would 
have to go back--
    Senator Coburn. Ten percent, and we know that you 
intercepted 1.1 million, and we know another 2 million came in. 
And I am just telling you, that is not acceptable. It is not a 
policy of this administration to address that; otherwise, the 
request would have been higher. What do we need?
    Mr. Evans. I think in technology development, there are a 
couple of key areas that we need. We need to look at things 
that are--first of all, there are a number of fairly mature 
products and mature technologies that are already out there. 
For example, you know, I talked about radars. In the types of 
scanning radars that are out there that we tested in Arizona 
Border Control--
    Senator Coburn. Let me interrupt you for a minute because I 
am going to have to go vote. You said just a moment ago you are 
not technology-limited, you are budget-limited.
    Mr. Evans. Yes, I am--
    Senator Coburn. Okay. So my point is--
    Mr. Evans. I am not limited in the choices of technology we 
can try to bring to bear to this.
    Senator Coburn. That is right. And so if we have a layered 
approach, multi-tactical approach, the question comes: What 
would it take for us to do to control the border to allow Chief 
Aguilar to have the resources so that he could tell the 
American people, look, this is just a dribble now? Because that 
is what they are looking for. This is a very compassionate 
Nation. We will deal with the people that are here in a proper 
way, and we will then have a national assessment about how many 
people should come in. But we need to know from this 
administration what is really needed to do it.
    Mr. Evans. I do not have a number. I am not--
    Senator Coburn. Okay. Would you commit to give to this 
Committee from the administration, from DHS and from the 
administration, the dollars required to achieve the goal? That 
is what the American people want to know.
    Mr. Evans. There are two parts to that, to answering that 
question. The first is in the Chief's and he does and the 
Border Patrol does what they are going to do for the major 
systems procurements. That is ASI, and that is the number of 
sensors and the number of people, the overall system. But for 
developing the technologies for that, yes, we can answer that. 
I cannot commit to the second part.
    Mr. Aguilar. Senator, you asked at the very beginning that 
we answer your questions, and I think I can do that in the 
following manner very succinctly, and that is that illegal 
immigration is a phenomenon that needs to be approached, I 
believe, from several component aspects. We deal with the 
enforcement aspect of it. We, I think, do a fairly good job of 
identifying the type of technology that we need. We are in the 
process of identifying the level of that technology, personnel, 
infrastructure that we need.
    I think there are other components that would also be 
brought to bear, which I will not go into for obvious reasons--
that is not my expertise--that would absolutely help us also 
bring control to the border by stemming the illegal immigration 
flow.
    Senator Coburn. Absolutely, and I understand that. I will 
not put that as part of this. We understand the incentives that 
need to be on the other side of the border, the economic 
investment that needs to be done. I understand all those other 
things. And the American people do, too. But what they know is 
it is against the law, and we are charged to uphold the law, 
and we are charged to give you the resources to do that. So it 
seems obvious to me that the administration has to tell us what 
is it going to take to get the job done. And we cannot wait 10 
years to get the job done.
    Mr. Aguilar. I would agree.
    Senator Coburn. Because every day you cannot intercept who 
you need to intercept that puts us at risk is a day that we put 
our country and our children at risk. And it is not acceptable. 
And if we are going to waste money in this country, the 
American people are willing to waste it trying to control it on 
the border. So we are willing to let you make some mistakes. We 
just want to know what you want. And a 10-percent increase is 
not enough if it is going to say we are going to intercept 1.4 
million out of 3 instead of 1.1. It is not enough. We have to 
know what it is.
    I am going to recess this until Senator Kyl and Senator 
Cornyn come back, and thank you so much for being here and 
offering your testimony.
    [Recess.]
    Chairman Cornyn. We will go ahead and reconvene. Sorry 
about the interruption, but Senator Kyl is planning on coming 
back after he votes as well.
    Chief Aguilar, let me start my questioning again with you. 
I had the experience not too long ago of flying with a Border 
Patrol agent in a helicopter in Webb County along the Rio 
Grande River. And although I am very familiar with that part of 
my State and that part of the United States, I was struck by 
the huge expanse of area that our Border Patrol has to monitor. 
And what I learned was that as a result of some of the build-up 
of Border Patrol and the use of equipment in the Arizona area 
because of the reasons that you have already discussed with us, 
the large influx of immigrants across that border, we have had 
to take some men and women and some equipment from other parts 
of the border. Is that a fairly common phenomenon that you try 
to move men and women and equipment around in order to meet 
what you view as a more urgent or more overwhelming concern?
    Mr. Aguilar. Yes, sir. Yes, that is fairly common. That has 
been historically common within the United States Border 
Patrol. And let me just preface that with Webb County, Laredo, 
Texas, is where I started my career, so I am very familiar with 
that vast area.
    But, Senator, one of the things that we do is we do take 
our resources and try and apply them where they are more 
needed, but not at the expense of the enforcement capacity from 
the sending location, if that makes sense, and by that I mean 
the following: that we ensure that when we take those 
resources, when we draw down, when we detail into another part 
of the country, there are enough resources in place to control 
or maintain the level of operational control that we have.
    Laredo, for example, in the last 7, 8 years has received 
remote video surveillance systems, in fact, is building 
tactical infrastructure right now, has gained greater 
accessibility and mobility to the river, the Rio Grande. So 
these are the things that basically make the sitting resources 
more efficient that allows us to take some of those drawdown 
and apply them on a temporary basis.
    Chairman Cornyn. Has it been your experience, Chief, that 
your adversaries, so to speak, the human smugglers and others 
who try to penetrate our border, that they are pretty smart, 
they know where you have moved your people and your resources 
and they may try to exploit the weakness in our line?
    Mr. Aguilar. Absolutely, sir. Very cagey, very smart, and 
they have a very good counterintelligence system.
    Chairman Cornyn. And I do not want you to misunderstand my 
comments as being critical. What I am critical of is the 
Federal Government's inability and unwillingness over the past 
couple of decades, at least, to deal with this problem in a 
comprehensive fashion. In an ideal world, you would have all 
the people on the ground and all the equipment necessary in 
order to secure our border as much as humanly possible. So 
please understand where I am coming from on that.
    The other thing I heard when I was last in Laredo was that 
these human smugglers, the coyotes, the others who are bringing 
people across, they learn how to use diversionary tactics 
perhaps to get Border Patrol agents as a result of the tripping 
of a sensor, maybe cameras going off and the like, to move in 
to try to detain, let's say, a handful or one or two people 
coming across the border. And just as the Border Patrol moves 
to that location, then others break across at another location 
and perhaps make a run for it, so to speak. Is that another 
common or routine sort of tactic used to try to get people 
across?
    Mr. Aguilar. Very much so. Senator, what you just described 
in the field is what we used to call sacrificial loads, where 
the smuggling organizations would send a load out in one 
direction while the real load was being put out in another 
location, while our resources were being diverted out here. It 
is very taxing on our agents out there. That is one of the 
reasons why technology, I think, is so important to us to bring 
to resolution as quickly as possible any kind of diversion of 
resources, any kind of sensor alarm that goes off, things of 
this nature, as quickly as possible.
    I would like to touch on that just a little more because a 
question was posed a few minutes ago about the Minutemen 
situation in Arizona, and that is the following: that anything 
that taxes our resources takes away from our capability to 
secure our Nation's borders. In that area of the country, that 
effort, if you will, was taxing on our resources because 
sensors were being set off, technology was picking up movement 
and things of this nature that we had to bring to resolution. 
So that was indirectly--not meant to be, but it was taxing on 
our resources also down there.
    Chairman Cornyn. Well, ideally, we would not have to have a 
situation where civilians felt obligated to move in and fill a 
void that has been left in our border security enforcement. But 
I appreciate what you are saying because when your sensors go 
off, you do not really know who is setting it off, so you have 
to deploy men or forces there to find out what is going on and 
to deal with it, whatever the case may be.
    One other thing I would like to explore with you. You know, 
we talk about people breaching our border and coming into the 
country, and we know that a given number of those are people 
who have no hope and no opportunity where they live, and so 
naturally, living next to the wealthiest Nation in the world, 
they are going to go where they believe that they can get a job 
and provide for their families. And I think every one of us as 
human beings can understand that natural human impulse.
    The danger really lies from my perspective in the fact that 
the same means of breaching the border and coming across is 
available to someone who wants to work in a restaurant or a 
hotel or a construction site as somebody who wants to come 
across to do us harm or somebody who is bringing illegal drugs 
or engaging in other illicit activity.
    Has it been your experience that some of the people engaged 
in human smuggling are essentially just in it for the money? In 
other words, what I have wondered about is whether the same 
element that will bring people across the border are just as 
happy to bring weapons, drugs, traffic in human beings, and 
engage in other criminal activity for profit? Do you agree with 
that generally, or what has been your experience? Maybe I will 
just let you state it in your own words.
    Mr. Aguilar. I do agree with that statement, Senator, and 
our experience has been that we have seen a melding, if you 
will, of these organizations in order to smuggle people, 
narcotics, weapons, anything for money. That is the bottom 
line. But that is why it is so critical that we continue our 
partnership and partnership building with the FBI, JTTF, our 
ICE agents. ICE, our sister agency, is concentrating its 
efforts on the organizations, which is really where one of our 
main problems is and where we should be concentrating our 
efforts out there.
    Chairman Cornyn. Dr. Evans, the organization that you are 
the head of at the Department of Homeland Security, the 
Homeland Security Advanced Research Projects Agency, as I 
understand it, that is the Homeland Security equivalent of 
DARPA at the Defense Department. Is that correct or is that a 
fair comparison?
    Mr. Evans. First of all, Senator, I would like to thank you 
for the promotion, but I am the mission support office of 
HSARPA and--
    Chairman Cornyn. You are welcome.
    [Laughter.]
    Chairman Cornyn. Thanks for the correction.
    Mr. Evans. It shares it in name. It has some fundamental 
differences. And I at one point in my misspent youth was a 
DARPA program manager.
    In DARPA, we were not anywhere near as driven as we are in 
HSARPA by requirements. I have requirements set by the Border 
Patrol, by the other agencies through portfolio managers, so we 
are much more requirements-driven. In DARPA, DARPA was 
essentially and is essentially sort of on top of the DOD 
structure that was a special agency set to just go do high-
risk, high-payoff things, and there is no real boundary on what 
you want to look at and do, other than DDR&E sort of sets some 
general guidelines, do space this year, you know, do something 
else. So that is the major difference.
    The things that are common is we are a very program 
management-oriented structure. We have a turnover of people 
coming in and out so that we get technical refresh of people. 
We tend to think of things in terms of programs of 2-, 3-, 4-
year time frames, and the program managers are both technically 
capable as well as managerially capable. Those are the 
similarities.
    There is a similarity in the law in setting up HSARPA. It 
referred back to DARPA in a number of ways, one of which was 
some of the personnel ways. So there is some special category 
of personnel that we hire.
    Chairman Cornyn. Well, I appreciate that explanation. I 
guess what I was really getting to is this: I serve also on the 
Armed Services Committee, and I am familiar--actually on the 
subcommittee that has oversight over DARPA, so I am familiar 
somewhat with what they do in terms of research and 
development, come up with new and creative technical, 
technological solutions to some of our challenges in the area 
of our defense requirements.
    How much communication and cooperation across Government 
agencies is there when it comes to some of the technology? We 
have heard testimony today about the deployment of UAVs, 
unmanned aerial vehicles, which became a matter of common 
knowledge as a result of the war in Afghanistan and Iraq and 
the technology being deployed there. We have talked some about 
sensors, which, of course, are used commonly in a military 
context.
    Are there any restrictions or limitations or impediments on 
the transfer of technology and science between Government 
agencies like the Department of Defense and the Department of 
Homeland Security? Is that something we ought to be concerned 
about or ought to look into? Or is it working just the way it 
should?
    Mr. Evans. As far are I know, there are no limitations. In 
fact, we rely on DOD, and most of us have come from DOD program 
management R&D background, and so we tend to rely on DOD as 
both a source of both ideas and also some technical agents. We 
use technical agents, and we use, for instance, night vision 
lab, the Army labs in some of the sensor areas that we are 
starting to look at. We will look at the Air Force for passive 
coherent localization. They have done a lot of work there, and 
I use the Navy lab out in San Diego for container security, and 
we are using them also in some of the BTSNet efforts.
    Also, probably half of my program managers have come from 
DARPA, so they bring along a head full of great ideas as they 
walk in.
    It is almost as a joke, but when someone comes on board, 
one of the people when I have a staff meeting, you know, asks 
two questions: Did you used to work in the Navy? And do you own 
a dog? And we do not understand the one about the dog, but we 
understand the one about did you work in the Navy.
    Chairman Cornyn. Chief Aguilar, let me ask one last 
question, and then I will turn it back over to Senator Kyl. I 
have read some news reports recently that indicate that there 
is some problem with the cameras that are being used along the 
border, that they are frequently broken, that we do not have 
the manpower to monitor the video feed, and other concerns.
    Could you give us the straight story on that? Where do we 
stand? Do you have concerns?
    Mr. Aguilar. I can give you an answer on that by saying 
that at the current time 90 percent of the cameras that are 
deployed out there physically are, in fact, in working order. 
There have been some problems in the past. We looked at--let me 
begin again, Senator.
    The cameras that are actually on site in the ground, 
approximately 90 percent of them are fully operational as we 
speak. Now, that was not the case as recently as a year ago, 
but we have worked very hard to get these up and running.
    As you are aware also, probably, the old ISIS legacy INS 
system is being assimilated into the ASI program that we are 
very much looking forward to. As a part of the ASI program, 
that assimilation will be bringing up to speed those cameras 
that are on the ground right now to ensure that they will be 
able to be integrated into that ASI program. So we are now the 
beneficiaries of money that has allowed us to bring these 
cameras up to speed at a rate of about 90 percent.
    Chairman Cornyn. ASI stands for what?
    Mr. Aguilar. I am sorry, sir. That is the America's Shield 
Initiative, the America's Shield Initiative that will be 
basically an all-encompassing means by which to bring 
electronic monitoring to the border. It is something that we 
are looking forward to, going through a process right now. It 
is a comprehensive integration and application of technology as 
a means of bringing operational control to the border. And what 
it is going to do is maximize and ensure that detection, 
intelligence-building capabilities, identification, deterrence, 
interdiction, investigation of illegal border incursions 
occurs.
    Chairman Cornyn. And when will that be stood up?
    Mr. Aguilar. At the present time, we are going to through 
the process of actually standing it up. Our next main point, if 
you will, is what is known as key decision point two, which 
will occur this May. And then subsequent to that will be an RFP 
for an integrator. Once the integrator to integrate all of 
these systems, both off the shelf and developing, will take 
place, within 30 days of selection of that then the ASI 
procurement will start taking place.
    Third quarter of 2006 is when we anticipate at the present 
time that this will commence.
    Chairman Cornyn. Senator Kyl?
    Chairman Kyl. Thank you. Let me just continue to follow 
that ISIS matter. GSA was the agency that reported on the 
deficiencies in the contract. Am I correct? That was not an 
Inspector General or some other agency.
    Mr. Aguilar. I believe--and I will have to check on this, 
Senator, but I believe it was the GSA IG--
    Chairman Kyl. It was the IG, Okay.
    Mr. Aguilar. Yes, sir.
    Chairman Kyl. And my understanding is that they found 
significant irregularities in the contract performance of the 
supplier that resulted in an inadequate system being deployed 
that was frequently down in many of its components, and that it 
has taken some time and effort to get it back up to where it 
should have been. Is that correct?
    Mr. Aguilar. That is correct, yes.
    Chairman Kyl. So there may be some repercussions for the 
contractor that allegedly failed to perform properly, but in 
terms of the system's capabilities today, it is now as capable 
as you would expect it to be. Is that correct?
    Mr. Aguilar. Yes. We are constantly trying to upgrade it 
even from 90 percent, but one of the things that we became 
beneficiaries of when we melded with CBP is that we also got 
additional support from the existing technicians that were over 
in CBP. So we have been able to augment our support capability 
to that existing system.
    Chairman Kyl. Okay. Now, what is it that has to be done to 
``bring them up to speed?'' Do you have to develop some 
communications links that enable you to transmit the visual 
images to some other location than the monitoring station? Or 
what is it?
    Mr. Aguilar. Senator I am afraid I cannot give you a lot of 
detail, but a lot of it was not the right equipment being 
placed in the right place, obsolescence in some cases, 
communications linkage in others. So it was a variety of things 
that we needed to bring up to speed.
    Chairman Kyl. Well, what do we need? I presume that because 
this is such force multiplier that we are anticipating 
continuing to deploy these cameras in as many locations as we 
can. What is the plan, basically? Are we continuing to deploy 
cameras in additional sites to put more cameras in the same 
site, to build better monitors? What are we doing generally 
with the video camera? And, by the way, some of these are IR, 
some are video, optical, daytime. What is the mix and what is 
the plan on deployment?
    Mr. Aguilar. The mix in each one of these sites, Senator, 
is such that it will give us day and night-time capabilities 
24/7. Of course, our wishes are 365 a year.
    Currently we have 246 operational camera sites. In addition 
to that, for example, in California we are getting ready to go 
up with another 11 sites, I believe. Arizona was the 
recipient--and I am going from memory here, and if I am wrong, 
I will get you the right information--I believe was the 
recipient of another nine this past year. We have a total of 
about 18 in the Douglas-Naco area of operation, another 15 in 
Nogales, and we are getting ready to go into what we know as 
the west desert area out there also.
    Chairman Kyl. Now, that first number you gave us, a very 
large number, are those mobile units? In other words, your 
first number was a hundred and some? What did you say the 
numbers were?
    Mr. Aguilar. There are 246 camera sites.
    Chairman Kyl. Okay, 246 sites?
    Mr. Aguilar. Yes, sir. A pole in the ground that has a 
combination of cameras that will give us a day-night 
capability, thermal--
    Chairman Kyl. Okay, but there were 18 in the Douglas-Naco 
area?
    Mr. Aguilar. I believe that is correct.
    Chairman Kyl. And you have another couple dozen in the 
Nogales area?
    Mr. Aguilar. I believe so. I will have to check on that, 
but I believe--
    Chairman Kyl. That is not nearly enough in those areas.
    Mr. Aguilar. We continue to build up on these, Senator. One 
of the things--
    Chairman Kyl. Where are the 246? Are they in California and 
Texas?
    Mr. Aguilar. No, sir. Tucson Sector, for example, has 39, 
Yuma has 18, Swanton has 6, El Centro Sector has 41, El Paso 
has 27, 20 in Laredo, 29 in McAllen. I think what is critical 
here, Senator, is for me to--I failed to explain, but each one 
of these camera sites, each one of these poles has the 
capability of looking in either direction about 6 miles.
    Chairman Kyl. Right, but 18 in Douglas and another 20-some 
in Nogales is not nearly sufficient there, so you need more 
cameras in the Tucson Sector.
    Mr. Aguilar. I would agree with that, yes, sir.
    Chairman Kyl. So that is an area of deficiency that we need 
to satisfy. What is being done to ask for the money to get the 
cameras in those areas?
    Mr. Aguilar. That is actually a part of the America's 
Shield Initiative that we just described a few minutes ago.
    Chairman Kyl. Is that in the 2006 budget request?
    Mr. Aguilar. I am looking at my staff, $64 million? There 
is $64 million in the America's Shield Initiative for 2006, 
yes, sir.
    Chairman Kyl. Okay. So part of that would be for upgrades 
and additional cameras?
    Mr. Aguilar. Yes, both.
    Chairman Kyl. Okay. One of the things that--and this has 
almost become mythology, but I think it is true. In the early 
years, a lot more resources were put into Texas, and especially 
fencing, but additional resources in California, with the 
result that a degree of control was obtained in both the Texas 
and California areas, and that immigration began then being 
funneled into Arizona, first in the Nogales area and then into 
the Douglas area, and then to some extent now over in the Yuma 
area, but it is still heaviest in the Douglas area, roughly, 
part of the Tucson corridor.
    Now, first of all, is that observation generally an 
accurate observation?
    Mr. Aguilar. I am sorry. Is that--
    Chairman Kyl. What I just told you, everybody always says 
that. Is that generally true?
    Mr. Aguilar. That is generally true, yes, sir.
    Chairman Kyl. Okay. Now, what was it that helped us to gain 
relative control--and that is a term that I appreciate does not 
mean total control, by any means--in Texas and California but 
has not permitted us to gain that degree of control in Arizona 
yet?
    Mr. Aguilar. One of the things that I will point back to, 
Senator, is what I talked about earlier, going from urban 
operations to rural. When we dealt with urban operations, 
infrastructure that was directly south of us, we were able to 
bring it to quick control. There was a shift over to the rural 
areas. This dissipated the criminal organizations on a much 
wider array, if you will. Application was the same--personnel, 
technology, and tactical infrastructure. The problem here is 
that when we are dealing with the rural environment, rural 
dynamic, it is a much broader scope of operations that we go 
into.
    Chairman Kyl. So, for example--do you mind if I just 
continue with this for just a minute?
    Chairman Cornyn. No. Please go ahead.
    Chairman Kyl. For example, between San Diego and Tijuana, 
first of all--you have got the ocean, which is one border--a 
lot of fencing was put in, triple fencing. To my knowledge, no 
one has ever gotten through the triple fencing. There have been 
crossings through the port and around Otay Mesa, but not 
actually over the fence itself. So because you had urban areas 
there and you were able to fence that, and then, of course, put 
monitors and Border Patrol there as well, the illegal 
immigration except through the port itself has slowed to a 
trickle in that particular area. Is that correct?
    Mr. Aguilar. It has fallen dramatically, yes, sir.
    Chairman Kyl. Whereas, in the Arizona desert, let's say on 
the Tohono O'odham Reservation or the gunnery range or one of 
the other Department of Interior jurisdictions along the 
border, there are no communities, there are no towns, very few 
roads, and it is some flat terrain, but a lot of mountainous 
terrain as well. Is that an accurate description?
    Mr. Aguilar. That is correct.
    Chairman Kyl. Two or three hundred miles there, and that 
dispersed area is a much more difficult area for the Border 
Patrol to have the same kind of control that I described in the 
California, San Diego area. Right?
    Mr. Aguilar. Absolutely, yes.
    Chairman Kyl. Okay. Now, Texas is a big place, and one 
thing I have not understood is that certainly Texas is not all 
San Diego. I know El Paso and Juarez and so on is, but you have 
got a lot of area of Texas that is ranch land with the river in 
between. That is not quite as remote and desolate as the 
Arizona desert, but it certainly is big country, a lot of 
space. How is relative control obtained there? And why can't 
that be applied to the Arizona desert?
    Mr. Aguilar. I think two major things come into play, 
Senator, and one is that most of Texas is privately owned land. 
We have easy accessibility to the border. We can also work with 
the independent private landowners to gain accessibility and 
build the tactical infrastructure, build the roadways, things 
of this nature.
    If my memory serves me correct, the border in Arizona, 
approximately 92 percent of it is environmentally sensitive, so 
we have to go through a multi-year process to even plant a pole 
in the ground, for example, for an RVS camera, to build the 
tactical infrastructure, to build the roadways and things of 
this nature.
    Second, one of the things--and I know that you and I have 
spoken about this before, Senator--is the ability--or the 
inability, I should say, for us to control the means of egress 
out of the Arizona border by way of checkpoints. If we would 
look at a map of the Southwest border and pinpoint the 
checkpoints, we would have them throughout Texas, especially on 
all the major roadways, 281, 77, 59, 359, 83, all of those 
major roadways. We do not have that kind of capability in 
Arizona, and controlling the means of egress out away from our 
border is essential to bringing control to the immediate 
border.
    Chairman Kyl. Okay. I want to follow up on those direct 
points, but--
    Chairman Cornyn. Go ahead.
    Chairman Kyl. Okay. And what are the key reasons why we 
don't have those checkpoints in Arizona?
    Mr. Aguilar. One of them, sir, is appropriations language, 
wording constraints.
    Chairman Kyl. Which says what?
    Mr. Aguilar. Which says that we cannot build permanent 
checkpoints anywhere within the Tucson Sector of the United 
States Border Patrol.
    Chairman Kyl. So in the Tucson Sector, is that any more? 
You cannot build any more with appropriation funds, right?
    Mr. Aguilar. We do not have any. We do not have permanent 
checkpoints.
    Chairman Kyl. So you are relegated to the use of temporary 
checkpoints or mobile checkpoints?
    Mr. Aguilar. Yes, sir, mobile checkpoints that we move 
around. Yes, sir.
    Chairman Kyl. And ideally, what would the disposition be? 
Would you have both or one or the other?
    Mr. Aguilar. It would be a combination, but the majority of 
the time we would have the permanency of the checkpoints in 
order not only to man them but have the proper equipment to do 
the job that is required at our checkpoints, to control those 
means of egress.
    Chairman Kyl. In contrast, what do you have in Texas?
    Mr. Aguilar. Let me give you an example. Highway 35 coming 
out of Laredo, one of the biggest ports of entry out there in 
Texas, Highway 35 has an approximate 19,000 to 21,000 vehicle 
flow through that. It is similar to our 19 checkpoint in 
Nogales, Arizona. During that 24-hour period, people going 
through the checkpoint in Laredo on 35 will have a four-lane 
checkpoint approach, will have a separate bus approach, the 
agents will have the use of forklifts, for example, to offload 
a semitrailer if a canine hits for human or narcotics. We have 
ability to cut into vehicles if the need is there if the canine 
hits and we do not see anything obvious. All of these come 
together.
    We also have what we refer to as peripheral infrastructure 
on either side of the checkpoints, permanent checkpoints. That 
gives us the ability to basically get an idea as to what is 
going around us by means of remote video surveillance systems, 
sensors, fencing, tactical infrastructure, things of that 
nature.
    The 19 checkpoint coming out of Nogales, very similar 
traffic flow and type of traffic; as you know, a lot of produce 
semitrailers coming out of there. We do not have the--we have 
got one lane to check the traffic coming out of there. Now we 
have two because we are on the main line. We do not have a 
means to run, in fact, sometimes even IDENT/IAFIS check. We 
have to take the apprehended people back to the station to do 
it out there.
    Chairman Kyl. In other words, in the mobile unit, you don't 
have any infrastructure associated with that?
    Mr. Aguilar. Exactly.
    Chairman Kyl. You have got to have battery-powered whatever 
that runs on electricity. You do not have any holding areas and 
so on. Right?
    Mr. Aguilar. Exactly. Staging areas, detention centers, 
things of that nature.
    Chairman Kyl. Okay. So that is one of the impediments that 
you have there.
    Mr. Aguilar. Yes.
    Chairman Kyl. And another impediment is the environmental 
constraints because of the Federal ownership of the land. Any 
action that you take out there becomes a major Federal action 
subject to NEPA review.
    Mr. Aguilar. Yes, sir.
    Chairman Kyl. An action such as putting in bollards to 
prevent vehicles from crossing the border, adding fencing, 
putting in a pole for a camera, et cetera. Is that correct?
    Mr. Aguilar. Yes, sir.
    Chairman Kyl. What kind of a delay do you end up with? And 
how much impediment really is all of that?
    Mr. Aguilar. In my own personal experience, Senator, when I 
was a chief down there in Tucson, I immediately identified a 
need for a specific type of technology out there. From the 
point of identifying the need to getting a pole in the ground, 
for example, for a remote video surveillance system was upwards 
of 2, 2-1/2 years. We have been working on the Tohono O'odham 
Nation now for vehicle barriers since about 3 years ago when I 
was still down there. We have gotten the approvals, but we are 
now working with the Tohono O'odham Nation. We are working with 
the Department of the Interior, things of this nature.
    On the Buenos Aires Refuge down there, we have established 
a need to access and get mobility to the immediate border. We 
have been doing that for at least 2-1/2, 3 years ago, and we 
have not been able to get the requirements just to blade the 
existing road and maintain it to get easier accessibility to 
the border.
    Chairman Kyl. In other words, there is no road along the 
border, no regular road.
    Mr. Aguilar. No regular road, no, sir.
    Chairman Kyl. And so you have had to blade an area where 
your vehicles can travel along there.
    Mr. Aguilar. That is what we would like to do, yes.
    Chairman Kyl. But you do not have permission to do it for 
the entire area there.
    Mr. Aguilar. That is correct.
    Chairman Kyl. Do you have access to the hilltops or 
mountaintops for your surveillance equipment, or are you 
limited there as well?
    Mr. Aguilar. Not on the Tohono O'odham Nation, sir. Every 
elevated site is considered a sacred site, so we do not have--
    Chairman Kyl. Do the smugglers or coyotes or others abide 
by that same determination?
    Mr. Aguilar. No, sir. They have access to them on a daily 
basis, 24 hours a day.
    Chairman Kyl. So these are some additional problems for 
controlling those more areas?
    Mr. Aguilar. Yes, sir.
    Chairman Kyl. Now, another concern is simply being able to 
go after the bad guys. I am going to take just 20 seconds, 
Senator Cornyn. If you look at this from the air, it is just 
honeycombed with little trails, and as you get closer down to 
the ground, you see it is also honeycombed with trash, just 
tons and tons and tons of trash. But here you have got a very 
fragile desert environment where you run a track across there, 
and it can be decades before it rejuvenates, the growth, 
because it is very arid and only certain plants survive there. 
So you have this honeycomb of trails used by illegal immigrants 
both for vehicles and individuals and a great deal of trash. So 
they clearly have access to the entire area here.
    Does the Border Patrol have unfettered access as well to 
all of these areas, to, in effect, if you see a group of 
smugglers, drug smugglers or illegal immigrants going through 
the desert, can the Border Patrol simply go after them, let's 
say, with an ATV or a four-wheel vehicle?
    Mr. Aguilar. No, sir. We are restricted against going 
across open territory like that, especially in those areas. 
Probably one of the most telling examples that I think I have 
shared with you, Senator, is the area in Ajo that we know as 
the Sweetwater Pass area. The Sweetwater Pass area, when I was 
the Chief down there--this was about 3 years ago. We had a 
beautiful canyon area, and the smugglers were utilizing it to 
traverse because they knew we could not follow. We worked with 
the other Federal agencies out there. We determined that we 
could use--we could not use motorized vehicles. We could not 
use bicycles because we would rut, even though the smugglers 
were. So we ended up with horses. We deployed on horses. But 
the only way that we could deploy on horses is that for a 
period of 2 weeks we had to give them special feed so that the 
droppings left by the horses would not bring in nonindigenous 
plants.
    Chairman Kyl. Now, please repeat that.
    Mr. Aguilar. We had to feed the horses feed that would 
ensure that the droppings would not bring nonindigenous plants 
into the Sweetwater Pass area. And that was the only means that 
we could deploy in there.
    Chairman Kyl. Senator Cornyn, I have some more questions 
along this line, but I think I will defer to you for 5 more 
minutes.
    Chairman Cornyn. Well, this has been fascinating.
    Chairman Kyl. There is more. These guys have a tough job.
    Chairman Cornyn. I know they have a tough job. This has 
been very informative, and Senator Kyl and I have discussed the 
geographic and other differences between Texas and Arizona that 
make the challenges greater, and I have new appreciation, 
particularly coming across Arizona, of the challenges that you 
have. And I guess it also confirms the wisdom of people from my 
State in 1845 when we were annexed to the United States, we 
reserved the right to maintain that land as non-Federal but 
State-owned land. And who knew it would turn out to provide us 
a better means of securing our borders. But it has been very, 
very informative.
    Chief, you talked a little bit about the checkpoints and 
how that has been helpful. But what I would like to explore 
with you is what we are doing, to your knowledge, beyond the 
checkpoints. How far are the checkpoints typically inland? 
Twenty-five miles or so?
    Mr. Aguilar. It varies. It varies, Senator. Under our 
statutory authority, we can operate within 100 air miles of any 
border of the United States. We have checkpoints that are 
within 4 or 5 miles. The checkpoint in Laredo, for example--we 
just built a new one--is going to be 32 miles north of the 
border out there.
    One of the critical aspects that you have hit on, sir, is 
part of our new strategy, and that is a defense in depth of 
which the checkpoints are absolutely critical to control the 
means of egress away from the border. But this also means that 
we will address the transportation hubs that are below and 
above the checkpoint issues also, to keep those away from the 
smugglers and utilizing them to impact upon migration into the 
United States.
    As a quick example, if you do not mind, sir, we now deploy 
Border Patrol agents at Sky Harbor Airport in Phoenix. We have 
also deployed agents at Las Vegas Airport and Los Angeles 
Airport because we have found that when we take away smugglers' 
ability to cross in certain parts of the border, what they do 
is they try to get around us and make their way to these 
transportation hubs. So, again, that defense in depth is 
absolutely critical. Part of that is also working in 
conjunction with ICE investigations to ensure that we do 
everything possible to disrupt and dismantle the smuggling 
organizations that are trying to continue to get around this on 
a constant basis.
    Chairman Cornyn. Did I understand you correct that you have 
a statutory limit of 100 miles that you can operate in?
    Mr. Aguilar. For checkpoints.
    Chairman Cornyn. Just for checkpoints.
    Mr. Aguilar. Yes, sir. We can operate anywhere in the 
country.
    Chairman Cornyn. Well, let me ask you a little bit about 
that. My experience has been or my observation has been that 
when people come across the border and if they are successful 
in making the break through the border, then they typically 
will go to safe houses.
    Mr. Aguilar. Yes, sir.
    Chairman Cornyn. Where they are instructed to go, and they 
will gather until someone comes to pick them up and drive them 
just south of the checkpoint, somewhere south of the 
checkpoint, let them out, give them water and provisions and 
they will be instructed to meet up with other transportation 
north of the checkpoint that will take them somewhere into the 
interior of the United States. Is that a fairly common pattern, 
to your knowledge?
    Mr. Aguilar. Yes, it is.
    Chairman Cornyn. And so my point really gets to once people 
get past the border, and particularly past the checkpoint, as 
effective as they are, the smugglers take that into account in 
arranging to get people out and around the checkpoints, if 
possible. Once they get north of the checkpoint, that is, into 
the interior, what sort of resources are deployed to actually 
identify, detain, and deport people who come illegally into our 
country?
    Mr. Aguilar. As far as the Border Patrol goes, Senator, we 
deploy beyond the checkpoints, if you will, into the interior 
of the country whenever there is a nexus to border control 
operations. As an example, Sky Harbor Airport, that is way 
north of our checkpoints, but we feel it critical to take away 
that facilitation of the smugglers.
    Now, in addition to what the Border Patrol does specific to 
border nexus operations, ICE has a tremendous responsibility of 
working the stash houses, working the employed aliens, working 
the criminal aliens and things of that nature. So we work in 
conjunction with them, especially in the area of intelligence.
    Chairman Cornyn. Is it a fair characterization to say that 
once the immigrants make it into the country past the 
checkpoint and are headed north, our chances of identifying 
them, detaining them, and deporting them drops dramatically?
    Mr. Aguilar. It does drop, yes, sir.
    Chairman Cornyn. And that is simply because you are 
outmanned in part, is it not? We do not have in the interior of 
our country sufficient people or resources deployed to be able 
to do that. Would you agree with that statement?
    Mr. Aguilar. Senator, with all due respect, I think I would 
leave that answer to my ICE counterparts that would have a 
better idea of what it is their needs are in the interior of 
the country. Do they need help? I would agree that they do, 
yes, sir.
    Chairman Cornyn. Well, we had our second hearing in this 
series that dealt with interior enforcement. I understand your 
wanting to defer to them, but my impression was that we do a 
reasonably good job considering the resources that we have 
committed at the border. But once someone makes it past the 
border into the interior of the country, we virtually are 
helpless in terms of our ability to identify, detain, and 
deport illegal aliens. Thus, some of the programs that have 
been put in place, a memorandum of understanding, I believe, 
with the State of Florida, the State of Alabama, and I think 
one other State. I read somewhere that California was 
contemplating a similar MOU to provide local law enforcement 
and State law enforcement with additional training and 
resources in exchange for their agreement to serve as a force 
multiplier in terms of interior enforcement. But it should, I 
guess, come as a surprise to no one that one reason why we have 
estimates in excess of 10 million people who are in this 
country living outside of our laws is because once people make 
it through the border, if they are detained, we do not have 
adequate means to keep them until their deportation hearing 
occurs. Once ordered deported, we do not have adequate means to 
make sure that that actually happens. And once they get past 
the checkpoint, they can literally just melt into the landscape 
and become part of that 10 million-plus population.
    Dr. Evans, let me ask you, if you had unlimited funds made 
available to you by the United States Congress, what sorts of 
things would you do with that money to further enhance our 
homeland security and particularly our border security that you 
are not able to do now because of limited funds?
    Mr. Evans. Well, if I had unlimited funds, I outlined some 
of the technology areas that we would be very interested in, 
and let me preface this--this is in developing technology, not 
deploying it. The Chief has by far the bigger problem. If we 
come up with the magical camera, he is the guy that has to put 
800 or however many of them out that are going to do it. But 
developing the technology, unlimited funds, the areas I talked 
about which included radars, looking at novel radar systems. 
The problems that we have radars today are getting them up high 
enough, getting towers for them. In the Coast Guard, looking at 
similar things for the Coast Guard, we deployed some radars on 
the coast, and the radar cost us $90,000; the tower cost us $1 
million, plus the environmental issues, et cetera.
    So we would look to try to really research and look at some 
very novel types of radar approaches that had a fairly limited 
footprint on the ground. That might be things such as 
distributed multi-static radars we talked about, phased arrays, 
smaller size multi-static types. So we would push a technology 
program there, with in mind the fact that you are going to have 
to go into very different environments, Northern border, 
mountainous, desert, et cetera. Not one type of system will 
work for all.
    We talked about the UAVs, and so I would develop a combined 
radar and EO/IR UAV package small enough to put into--light 
enough and small enough but long enough endurance UAV. That is 
something that the Border Patrol could afford in significant 
numbers. There is a lot of technology out there both from--
principally from DOD that we can apply to that. DOD, however, 
uses UAVs but they are pricey. They are a lot pricier than the 
homeland security area, and one of the reasons for that, they 
have a very different tactical mission in mind.
    And I would go about doing that by looking at a series of 
sensors, and as I talked about, I would put that on a manned 
platform first in a test bed, see what works, you know, and 
along with both the sensors themselves, just as important is 
the signal processing that goes into that.
    I would take a serious look at fiber optic sensors that are 
buried. There may be long stretches that that could do fairly 
well. My first look at it, I was very skeptical, but there have 
been some pieces there that might work in particular areas. 
That is not only the sensors themselves, the coupling into the 
ground, how a sensor is actually coupled into the ground, and 
both the sensing technology but also the signal processing 
technology to really determine a footstep at a longer and 
longer distance or determine a vehicle at a longer distance and 
be able to track it. I think, you know, today we use fairly 
unsophisticated methods for doing that, sort of see the thing 
go along. In my former life, we did a lot of very sophisticated 
signal processing to detect submarines, et cetera. So to look 
at what signal processing can we get to bear to bring the 
signal out of the noise.
    We would look at novel sensors, at least, you know, things 
such as acoustic things and other types of seismic sensors. 
Added to that, start looking at automatic tracking, automatic 
alertment in the visual sensor area, look at bolometers and new 
technologies that are occurring in cameras and bolometers, plus 
coupling that tightly with enhanced and better and better 
signal and image and automatic scene understanding of the 
camera itself. It could envision a fairly small set of cameras 
on a tower, but on a smaller footprint tower than the Chief has 
today, fairly autonomous. Today people have to watch the 
cameras, but fairly autonomous that would just alert to 
something occurring and see how far you could push that in 
terms of--and then, lastly, I would start looking at more 
airborne--we talked about the UAV, but look at sensors that are 
even higher that would allow you to get a wider view and 
particularly focal plane EO/IR types of sensors. Some of that 
technology is classified in the national technical means, but 
there are things we could do there.
    That is sort of my list. I will think of something else 
later.
    Chairman Cornyn. I trust you will let us know.
    And, Chief, finally from me, if you had unlimited 
resources, what would you do with them that you cannot do now 
because of limited resources that you think are important to 
accomplishing your mission?
    Mr. Aguilar. I think one of the most important things that 
we would look at doing, Senator, is make sure that we integrate 
the technology available as a systems package, as a systems 
package to be able to integrate with the personnel resources 
that we have out there; and then, in addition to that, take the 
tactical infrastructure that we have now and that we want to 
build out there to ensure that we deploy it in those areas that 
will impact upon the smuggling organization's capability of 
operating along our Nation's borders.
    Chairman Cornyn. Thank you very much.
    Senator Kyl?
    Chairman Kyl. To follow up on that last point, my 
understanding is that the use of the UAV, a very expensive 
piece of equipment, was best achieved when it did not simply 
fly along the border at a high altitude with people waving at 
it but, rather, when it was relatively low so they could hear 
it, and as soon as it flew over, somebody from Border Patrol 
was right there. In other words, where the smugglers knew that 
if they heard or saw the UAV, the Border Patrol was in the 
area, integration of technology and the manpower. But if the 
Border Patrol was not in the area, they figured, So what? Is 
that, in fact--I mean, that is what your successor in the 
Tucson Sector related to me about a month ago. Is that your 
understanding of one of the utilizations and integrations of 
the technology?
    Mr. Aguilar. Absolutely, yes, sir. One of the things that 
we actually took a look at when we flew the UAV out there was 
removing the muffler system on it in order to make that noise 
so that they could hear that it was in the area out there.
    Chairman Kyl. But how much good would it do if they came to 
appreciate there was not anybody around to stop them or to pick 
them up, even if the UAV saw them?
    Mr. Aguilar. It would depend on the area, Senator, and I 
think you have asked a very critical question here, because to 
create deterrence, the way that we explain it is that we create 
a high-profile not necessarily a high-visibility presence on 
that border, to the degree that when a person crosses that 
border, makes an illegal incursion, he or she recognizes that 
there is going to be an apprehension, interdiction, or 
resolution of that illegal incursion, either right at the 
border, which is preferable, or within a reasonable distance of 
the border, which in some cases could be 25, 30 miles from the 
border.
    So that is the perception that we try to create. If the UAV 
flies, the person sees it, he or she keeps on walking because 
an agent is not around, but they keep being apprehended 20, 25 
miles down the road, then we have created that high-profile 
presence that will bring deterrence to that entire area.
    Chairman Kyl. Right. I guess it could be anywhere from a 
mile to 25 miles, but the bottom line is if it flies and 
nothing ever happens to the people who are seen, then they 
realize it is just for show.
    Mr. Aguilar. Absolutely. The agents are key on the ground, 
yes, sir.
    Chairman Kyl. And both for Dr. Evans and you, I talked 
about the fact that some of these hilltops were not available, 
or actually Chief Aguilar talked about the fact that some of 
the hilltops were not available. With respect to cameras, 
lights, and radars and other--well, those three items, is it 
much preferable to have a higher elevation from which to site 
the particular piece of technology?
    Mr. Evans. I can answer that. It is about 80 percent of the 
problem.
    Chairman Kyl. Is to get elevation.
    Mr. Evans. Right. Topography, you know, ask an infantry 
officer, topography is it. It really gets very, very--most 
sensors or any kind of line-of-sight type of system or ground 
clutter type of system are made ineffectual if you are going to 
put them down in the middle of a valley. There are some 
exceptions to that, but by and large, it is, you know, sort of 
80 percent of the problem. I think you would agree.
    Mr. Aguilar. Yes, sir.
    Mr. Evans. Go to high ground and you can see.
    Chairman Kyl. Now, finally, let me just conclude with Chief 
Aguilar. I had mentioned the fact that your written testimony 
refers to a lot of very interesting references to various 
partnerships and agreements with different entities in Mexico 
that have enabled you to go after the MS-13 group, for example, 
and other potential terrorist organizations, sharing of 
intelligence and a whole variety of cooperative agreements with 
different entities in Mexico. But I said those were fairly 
targeted kinds of agreements, and my perception was that with 
respect to the typical kind of illegal immigration that occurs 
at the border, there is very little cooperation from the 
Mexican Government, and, in fact, the proof in the pudding that 
such cooperation would actually bear fruit was the effort by 
Grupa Beta--at least we have been informed it was Grupa Beta, 
but it could be other entities as well that informed immigrants 
that they really should not risk crossing in the area where 
these Minutemen were because something bad might happen to 
them. And my understanding is that the immigration dried up to 
a trickle in that particular area for that reason.
    So the question naturally arises: Why wouldn't similar 
Mexican governmental warnings or admonitions to Mexican 
citizens or other would-be immigrants not to cross the border 
have a similar effect and what your experience has been in 
trying to get the Mexican Government to work on that broader 
type of illegal immigration?
    Mr. Aguilar. Tough question.
    Chairman Kyl. And let me preface it by saying you are not 
the State Department and I appreciate that.
    Mr. Aguilar. First of all, Senator, let me say that I agree 
with you. The working relationships that exist now and are 
being built on now are, in fact, as you put it, targeted 
relationships specific to, frankly, our highest priority--
national security, terrorist, terrorist-related, terrorist 
nexus and things of that nature.
    Chairman Kyl. And the smuggling operations that are the 
highest priority target.
    Mr. Aguilar. Yes, sir, the criminal organizations that 
operate south of the border either by way of intelligence, 
working relationships and things of this nature. There are 
several fronts that we are working on. For example, as we speak 
right now, we are continuing to negotiate with the Government 
of Mexico on the follow-up interior repatriation program, which 
is a two-pronged approach. One is border safety to get people 
out of these very dangerous areas in Arizona. The other one is 
take them out of the queue, if you will, from the smuggling 
organizations.
    Beyond that, there is a reluctance. There is a reluctance 
to engage in blocking, stemming that flow out there.
    Chairman Kyl. Are you familiar with the Mexican town of 
Altar?
    Mr. Aguilar. Yes, sir, very familiar with it.
    Chairman Kyl. Describe it in 20 seconds or less.
    Mr. Aguilar. The little town of Altar is south of the 
border, south of Lukeville, Arizona, and it is about 60 to 65 
miles south. It is a community that is very, very small in 
nature. It has a floating population of aliens, of intended 
aliens to come into the United States that has been measured 
upwards of 20,000, 30,000 as a floating population, staging 
there in order to make their way into the interior of the 
United States, along with narcotics smugglers also.
    Chairman Kyl. And so the sense is that if the Mexican 
Government, for example, would go to a place like Altar and 
say, Folks, look, we know you came here from a long ways away, 
but you should not try to cross the border, and use the 
authority of the Mexican Government to prevent it, it could, in 
fact, significantly reduce the flow of illegal immigration 
coming north, right?
    Mr. Aguilar. I would agree with that statement, yes, sir.
    Chairman Kyl. Well, I appreciate that is not your--well, 
there are elements within your jurisdiction in which you have 
been very successful in pursuing agreements, but as a general 
proposition, I appreciate that that is not your primary 
responsibility.
    I know I share Senator Cornyn's gratitude for both of you 
appearing here and taking this much time. There may be some 
questions of a follow-up nature that we would want to submit to 
you, and I hope you would be willing to answer those questions. 
And some of our colleagues who could not be here today might 
have some questions as well. But I thank you for your 
testimony. There is so much more we could talk about, and I am 
already 15 minutes late to another obligation, but I will have 
the chance to visit with you both personally, I know, and I 
appreciate very, very much that you were here today.
    Thank you.
    Chairman Cornyn. Thank you, Senator Kyl, and thanks for co-
chairing this important hearing.
    Dr. Evans and Chief Aguilar, thank you very much for your 
service to our Nation, and we know you have a challenging job, 
and it is our job to try to make sure you have the resources 
you need in order to be successful.
    We will leave the record open until 5:00 p.m. next 
Thursday, May the 5th, for members to submit additional 
documents into the record or tender questions in writing for 
the panelists.
    And with that, this hearing is adjourned.
    [Whereupon, at 5:00 p.m., the Subcommittees were 
adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T1922.024

[GRAPHIC] [TIFF OMITTED] T1922.025

[GRAPHIC] [TIFF OMITTED] T1922.026

[GRAPHIC] [TIFF OMITTED] T1922.001

[GRAPHIC] [TIFF OMITTED] T1922.002

[GRAPHIC] [TIFF OMITTED] T1922.003

[GRAPHIC] [TIFF OMITTED] T1922.004

[GRAPHIC] [TIFF OMITTED] T1922.005

[GRAPHIC] [TIFF OMITTED] T1922.006

[GRAPHIC] [TIFF OMITTED] T1922.007

[GRAPHIC] [TIFF OMITTED] T1922.008

[GRAPHIC] [TIFF OMITTED] T1922.009

[GRAPHIC] [TIFF OMITTED] T1922.010

[GRAPHIC] [TIFF OMITTED] T1922.027

[GRAPHIC] [TIFF OMITTED] T1922.028

[GRAPHIC] [TIFF OMITTED] T1922.029

[GRAPHIC] [TIFF OMITTED] T1922.030

[GRAPHIC] [TIFF OMITTED] T1922.031

[GRAPHIC] [TIFF OMITTED] T1922.032

[GRAPHIC] [TIFF OMITTED] T1922.033

[GRAPHIC] [TIFF OMITTED] T1922.034

[GRAPHIC] [TIFF OMITTED] T1922.035

[GRAPHIC] [TIFF OMITTED] T1922.036

[GRAPHIC] [TIFF OMITTED] T1922.037

[GRAPHIC] [TIFF OMITTED] T1922.038

[GRAPHIC] [TIFF OMITTED] T1922.039

[GRAPHIC] [TIFF OMITTED] T1922.040

[GRAPHIC] [TIFF OMITTED] T1922.041

[GRAPHIC] [TIFF OMITTED] T1922.042

[GRAPHIC] [TIFF OMITTED] T1922.011

[GRAPHIC] [TIFF OMITTED] T1922.012

[GRAPHIC] [TIFF OMITTED] T1922.013

[GRAPHIC] [TIFF OMITTED] T1922.014

[GRAPHIC] [TIFF OMITTED] T1922.015

[GRAPHIC] [TIFF OMITTED] T1922.016

[GRAPHIC] [TIFF OMITTED] T1922.017

[GRAPHIC] [TIFF OMITTED] T1922.018

[GRAPHIC] [TIFF OMITTED] T1922.019

[GRAPHIC] [TIFF OMITTED] T1922.020

[GRAPHIC] [TIFF OMITTED] T1922.021

[GRAPHIC] [TIFF OMITTED] T1922.022

[GRAPHIC] [TIFF OMITTED] T1922.023

[GRAPHIC] [TIFF OMITTED] T1922.043

[GRAPHIC] [TIFF OMITTED] T1922.044

[GRAPHIC] [TIFF OMITTED] T1922.045

[GRAPHIC] [TIFF OMITTED] T1922.046

[GRAPHIC] [TIFF OMITTED] T1922.047

[GRAPHIC] [TIFF OMITTED] T1922.048

[GRAPHIC] [TIFF OMITTED] T1922.049

[GRAPHIC] [TIFF OMITTED] T1922.050

[GRAPHIC] [TIFF OMITTED] T1922.051

[GRAPHIC] [TIFF OMITTED] T1922.052

[GRAPHIC] [TIFF OMITTED] T1922.053

[GRAPHIC] [TIFF OMITTED] T1922.054

[GRAPHIC] [TIFF OMITTED] T1922.055

[GRAPHIC] [TIFF OMITTED] T1922.056

[GRAPHIC] [TIFF OMITTED] T1922.057

                                 <all>

</pre></body></html>
